Application No. 19A1024
No.

In The
SUPREME COURT OF THE UNITED STATES

VIKTORIA BENKOVITCH
Petitioner,
v.
DEUTSCHE BANK NATIONAL TRUST COMPANY, AS TRUSTEE
FOR HOLDERS OF THE BCAP LLC TRUST 2007-AA3,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
~
for the Eleventh Circuit
PETITION FOR A WRIT OF CERTIORARI
VIKTORIA BENKOVITCH
Petitioner
Appearing Pro Se
44 Cotswold Crescent
Toronto, Ontario, Canada M2P 1N2
Tel: (786) 223 3979
Email: Benkovitch@hotmail.com
COUNSEL OF RECORD FOR RESPONDENT
Nancy M. Wallace, Esq.
Michael J. Larson, Esq.
Akerman, LLP
210 East Park Avenue, Suite 300
Tallahassee, Florida, USA 32301

May 13, 2020

RECEIVED
MAY 1 9 2020

QUESTIONS PRESENTED
In this case, there is a confirmed Chapter 11 bankruptcy plan, substantially
consummated, and later, converted to a Chapter 7. “[T]he provisions of a confirmed
plan bind the debtor ... and any creditor ... whether or not such creditor has accepted
the plan.” 11 U.S.C. Section 1141(a). The bankruptcy court’s order confirming said
plan is a final judgment which has not been appealed, not revoked nor voided, and
not vacated.
Therefore, this case presents the following questions:
1. Which is worse, that a debtor obtains a real property that she already owns,
free of any liens, because a secured creditor failed to timely comply with a
bankruptcy court’s final confirmation order; or, when that same bankruptcy
court fails to enforce said final order? Subsequently, in the appeal
proceedings below, should the courts have enforced the clear and
unambiguous terms of a final order, including where the bankruptcy court
failed to enforce its own order?
2. What makes

a

non-appealed and non-vacated bankruptcy

court

confirmation order - entered after meticulous and compliant attention to
due process and proper notice, and which has not been voided - different
from any other final order? Does said final judgment also have res judicata
effect, precluding it from collateral attack? Is a secured creditor bound by
the terms of a confirmed bankruptcy plan where it had notice, and did not

l

object to nor appeal, and did not move to void or vacate that confirmed
bankruptcy plan?
3. Does a bankruptcy court have equitable discretion to ignore the clear terms
of its own final order? And, can the Bankruptcy Code be over-ridden by
equitable considerations and notions of fairness? Can a bankruptcy court
find a confirmed bankruptcy plan fair and equitable, but then refuse to
enforce it?
4. Does conversion from a Chapter 11 proceeding to a chapter 7 undo a
bankruptcy confirmation order - which has not been appealed, not revoked
nor voided, and also not vacated - and, everything that happened before
such conversion?

li

PARTIES TO THE PROCEEDING
The caption contains the names of the parties to the proceedings.

in

LIST OF RELATED PROCEEDINGS
This case arises out of a directly related bankruptcy case filed by the Petitioner
in the United States Bankruptcy Court for the Southern District of Florida (Miami
Division):
U.S. Bankruptcy Court Southern District of Florida (Miami Division)
In re: Viktoria Benkovitch, Debtor
Case No. 14-36362-AJC
(i)

The bankruptcy court entered a confirmation order confirming the
Petitioner's [or the Debtor's] Chapter 11 Plan on September 21, 2015;
Docket Entry 529; and,

(ii)

The bankruptcy court entered an order granting the Petitioner's [or the
Debtor's] Motion to convert her Chapter 11 proceeding to a Chapter 7 on
May 13, 2016; Docket Entry 771.

IV

TABLE OF CONTENTS

QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDING

iii

LIST OF RELATED PROCEEDINGS

iv

TABLE OF CONTENTS

v

TABLE OF APPENDICES

vii

TABLE OF AUTHORITIES

viii

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW .....

1

JURISDICTION

2

STATUTORY PROVISIONS INVOLVED

3

STATEMENT

4

I.

Proceedings Below

4

II.

Federal Jurisdiction in The Lower Courts

5

III.

Factual Background

6

REASONS FOR GRANTING THE PETITION
I.

10

The Eleventh Circuit’s Decision Contravenes The Bankruptcy
Code and Controlling Precedents
10
A. Statutory and Legal Framework
V

10

B. The Bankruptcy Court’s Final Confirmation Order is Binding and
Must be Enforced
13
C. Notions of Equity and Fairness Do Not Override The Provisions of
The Bankruptcy Code
15
D. The Res Judicata Effect of a Final Confirmation Order

17

II.

As a Result of The Eleventh Circuit’s Decision, The Circuits Are
Now Even Further Split With Respect To The Continuing Binding
Effect of a Final Chapter 11 Confirmation Order After
Conversion to Chapter 7
19

III.

This Case Presents An Ideal Vehicle As It Impacts Unresolved
Areas of Bankruptcy Law
22

IV.

The Eleventh Circuit’s Decision Is Wrong And Inconsistent With
Its Own Precedents
27
A. Relevant Considerations In This Case That Show Why The
Eleventh Circuit’s Decision Was Wrong
27
B. The Eleventh Circuit Disregarded Its Own Precedents

CONCLUSION

31
36

vi

TABLE OF APPENDICES

Appendix A: Non-published opinion of the Eleventh Circuit
Court of Appeals (September 23, 2019)............

la

Appendix B: Opinion of the United States District Court
Southern District of Florida (March 30, 2018)

3a

Appendix C: Opinion of the United States Bankruptcy Court
Southern District of Florida (June 1, 2017).......

9a

Appendix D: Opinion of the United States Bankruptcy Court
Southern District of Florida (May 19, 2017).....

11a

Appendix E: Opinion of the United States Bankruptcy Court
Southern District of Florida (May 22, 2017).....
Appendix F: Order by Eleventh Circuit Court of Appeals
Denying Petition for Rehearing (December 16, 2019)

13a

15a

Appendix G: Order by the United States Supreme Court
Granting Application for an Extension of Time Within Which to
File a Petition for a Writ of Certiorari (March 19, 2020)............. 16a
Appendix H: Order by the United States Supreme Court
titled “ORDER LIST: 589” (March 19, 2020)

Vll

17a

TABLE OF AUTHORITIES
Cases
Ackermann v. United States,
340 U.S. 193, 198, 71 S. Ct. 209, 95 L. 2d. 207 (1950)

14

Bank of LA. v. Pavlovich (Matter of Pavlovich),
952 F.2d 114 (5th Cir. 1992)

20, 24

Bullard v. Blue Hills Bank,
135 S. Ct. 1686, 1692, 191 L. Ed. 2d 621 (2015)

11, 14, 17

Campbell Ewald Co. v. Gomez,
136 S. Ct. 663, 669, 193 L. Ed. 2d 571 (2016), as revised, (Feb. 9, 2016)

35

Chemical Bank v. First Trust of New York (In re Southeast Banking Corp.),
156 F.3d 1114, 1122 (11th Cir. 1998)........................................ .................. 34
Federated Dep't Stores, Inc. v. Moitie,
452 U.S. 394, 398, 101 S. Ct. 2424, 69 L. Ed. 2d 103 (1981).............

18

Finova Capital Corp. v. Larson Pharmacy Inc. (In re Optical Techs., Inc.),
425 F.3d 1294, 1300 (11th Cir. 2005)...................................................

10

First Nat 'l Bank of Oneida, N.A. v. Brandt,
887 F.3d 1255, 1260 (11th Cir. 2018)....................................................

32

Gonzalez v. Crosby,
545 U.S. 524, 528-29, 125 S. Ct. 2641, 162 L. Ed. 2d 480 (2005) ....

12

Harris v. Viegelahn,
135 S. Ct. 1829, 191 L. Ed. 2d 783 (2015)

13, 22, 25

Iberiabank v. Geisen (In re FFS Data, Inc.),
776 F.3d 1299, 1306 (11th Cir. 2015).....

33

In re Justice Oaks II, Ltd.,
898 F.2d 1544, 1549 (11th Cir. 1990).....

vm

32

In re Longardner & Assocs., Inc.
.passim

855 F.2d 455, 460 (7th Cir. 1988)
In re Newport Harbor Assocs.,
589 F.2d 20, 22 (1st Cir. 1978)

passim

In re Optical Technologies, Inc.
425 F.3d 1294, 1300 (11th Cir. 2005)

11, 32

In re Orange Tree Assocs., Ltd.,
21

961 F.2d 1445, 1447 n.6 (9th Cir. 1992)
In re State Airlines,

873 F.2d 264 (11th Cir. 1989).................................................................... 24, 34
In re Westport Holdings Tampa,
789 Fed. Appx. 207 (11th Cir. 2019)..........................................................

33

IRT Partners, L.P. v. Winn-Dixie Stores, Inc. (In re Winn-Dixie Stores, Inc.),
639 F.3d 1053 (11th Cir. 2011)...................................................................

33

Katchen v. Landry,
382 U.S. 323, 334, 86 S. Ct. 467, 151 L. Ed. 2d 391 (1966)...................

19

Knox v. Serv. Emps. Int'l Union, Local 1000,
567 298, 132 S. Ct. 2277, 2287 183 L. Ed. 2d 281 (2012)

35

Laing v. A.G. Johnson (In re Laing),
31 F.3d 1050 (10th Cir. 1994)............................................

21

Law v. Siegel,
571 U.S. 415, 421, 134 S. Ct. 1188, 188 L. Ed. 2d 146 (2014)

12, 15, 16

Montana v. United States,
440 U.S. 147, 153, 99 S. Ct. 970, 59 L. Ed. 2d 210 (1979)

17

North Carolina v. Rice,
404 U.S. 244, 246, 92 S. Ct. 402, 404, 30 L. Ed. 2d 413 (1971)

IX

35

Norwest Bank Worthington v. Ahlers,
485 U.S. 197, 206, 108 S. Ct. 963, 99 L. Ed. 2d 169 (1988).............. 12, 16, 34
Stoll v. Gottlieb,
305 U.S. 165, 172, 59 S. Ct. 134, 83 L. Ed. 104 (1938)......................

19

Taylor v. Sturgell,
553 U.S. 880, 891, 128 S. Ct. 2161, 2171, 171 L. Ed. 2d 155 (2008)

17

Toibb v. Radloff,
501 U.S. 157, 162, 111 S. Ct. 2197, 115 L. Ed. 2d 145 (1991)

16

Travelers Indemnity Co. v. Bailey,
557 U.S. 137, 152, 129 S. Ct. 2195, 174 L. Ed. 2d 99 (2009) .

11, 18, 34

United Student Aid Funds, Inc. v. Espinosa,
559 U.S. 260, 269, 130 S. Ct. 1367, 176 L. Ed. 2d 158 (2010)

10, 11, 14, 17

Welzel v. Advocate Realty Invs., LLC (In re Welzel),
275 F.3d 1308 (11th Cir. 2001)..................................................

34

Statutes
11 U.S.C. Section 1101

passim

11 U.S.C. Section 1107

6

11 U.S.C. Section 1127(b)

29

11 U.S.C. Section 1141(a)

10, 13, 14, 15, 16, 22, 24, 25, 29, 32

11 U.S.C. Section 1144 ...

...... 12, 21, 22, 24, 25, 26, 27, 29, 32

11 U.S.C. Section 1327

passim

11 U.S.C. Section 105

12, 15

11 U.S.C. Section 348

13, 16, 20, 22, 24, 25, 26

11 U.S.C. Section 506

6

28 U.S.C. Section 157

6

28 U.S.C. Section 158

6

x

28 U.S.C. Section 1334(a)

6

28 U.S.C. Section 1254 ...

3

28 U.S.C. Section 1291

5

Federal Authorities
FED. R. BANKR. P. 7001

6

FED. R. BANKR. P. 1019

passim

FED. R. BANKR. P. 1015

passim

FED. R. CIV. P. 60(b)

12, 29

xi

PETITION FOR A WRIT OF CERTIORARI
Petitioner VIKTORIA BENKOVITCH (the “Petitioner”), appearing on a pro se
basis, respectfully seeks a writ of certiorari to review a judgment of the United States
Court of Appeals for the Eleventh Circuit, entered on September 23, 2019, and which
affirmed an order entered by the United States District Court for the Southern
District of Florida affirming three related bankruptcy court orders appealed to that
district court by the Petitioner.
The relevant judgment is not only in conflict with decisions of other U.S. courts
of appeals and the relevant holdings of this Court, but also sanctions departures by
the noted respective lower courts in relation to the finality and res judicata effect of
a final confirmation order in a bankruptcy proceeding; and, thereby, requiring the
exercise of this Court's supervisory power.
In addition, while this Court has settled the applicability of a final bankruptcy
court confirmation order in a bankruptcy Chapter 13 proceeding, it has not done so
in a Chapter 11 proceeding that was later converted to a Chapter 7.
OPINIONS BELOW
The September 23, 2019 non-published opinion of the Eleventh Circuit Court
of Appeals is reported as In re: Viktoria Benkovitch, Viktoria Benkovitch v. Deutsche
Bank National Trust Co., 777 Fed: Appx. 968 (11th Cir. 2019); and, is reproduced as
Appendix ("App.") A, infra, App. la-2a.

1

The March 30, 2018 opinion of the United States District Court Southern
District of Florida affirming the three Bankruptcy Court orders on appeal to that
District Court is unreported but is reproduced as Appendix B, infra, App. 3a-8a.
The opinion of the United States Bankruptcy Court Southern District of
Florida June 1, 2017 Order [Denying] On Emergency Motion For Reconsideration of
Order Granting Motion to Dismiss [and] Order On Motion for Summary Judgment
In Favor Of Defendant, Or Alternatively, For Stay Pending Appeal is unreported but
is reproduced as Appendix C, infra, App. 9a-10a.
The opinion of the United States Bankruptcy Court Southern District of
Florida May 19, 2017 Order [Granting The Non-Movant Summary Judgment] is
unreported but is reproduced as Appendix D, infra, App. lla-12a.
The opinion of the United States Bankruptcy Court Southern District of
Florida May 22, 2017 Order Granting [Defendant's] Motion To Dismiss is unreported
but is reproduced as Appendix E, infra, App. 13a-14a.
JURISDICTION
The judgment of the Eleventh Circuit Court of Appeals was entered on
September 23, 2019. The Petitioner then filed a Petition for Rehearing En Banc, on
November 12, 2019. Said petition for rehearing was denied by the Eleventh Circuit
on December 16, 2019, and which is reproduced as Appendix F, infra, App. 15a.
On March 13, 2020, the Petitioner timely filed to this Court [docketed by the
Court on March 16, 2020] an Application for an Extension of Time Within Which to

2

file a Petition for a Writ of Certiorari, requesting a 60-day extension. The Application
for an extension of time for 30 days up to and through April 14, 2020 was granted by
this Court on March 19, 2020, and which is reproduced as Appendix G, infra, App.
16 a.
On April 4, 2020, the Petitioner timely filed a second application for an
additional 30-day extension from the Court, including due to the COVID-19
pandemic. However, such application was returned to the Petitioner by the Clerk of
the Court because on March 19, 2020, as a result of the COVID-19 pandemic, this
Court had also entered an administrative order providing applicable petitioners 150
days from the date of the lower court judgment or, as applicable, an order denying a
timely petition for rehearing in which to timely file a petition for a writ of certiorari.
Resultingly, this provided the Petitioner up to and through May 14, 2020 to file this
instant Petition. The Court's administrative order titled "ORDER LIST: 589 [dated]
Thursday, March 19, 2020" is reproduced as Appendix H, infra, App. 17a-18a.
This Court has jurisdiction under 28 U.S.C. Section 1254(1).
STATUTORY PROVISIONS INVOLVED
Pursuant to United States Supreme Court Rule 14.1(f), the applicable
constitutional provisions, statutes, and rules involved in this case are listed below,
and as set out fully in the Appendix. Their respective pertinent text is cited, as may
be required, in the applicable argument(s).

3

STATEMENT
I.

Proceedings Below
This instant Petition arises as a result of the U.S. Court of Appeals for the

Eleventh Circuit's (the "Eleventh Circuit's") September 23, 2019 decision affirming
the United States District Court Southern District of Florida's (the "District Court’s")
March 30, 2018 order, which had affirmed three respective United States Bankruptcy
Court Southern District of Florida (the "Bankruptcy Court") orders [listed above and
further described below], and which had been appealed to the two respective higher
courts by the Petitioner. The Eleventh Circuit entered its September 23, 2019 nonpublished opinion after the Eleventh Circuit scheduled, and then subsequently held
oral argument by the parties on September 18, 2019. During said oral argument,
Petitioner's legal counsel at the time argued the finality and binding effect of the
Bankruptcy Court's Confirmation Order.
This case initially arose because appellee/respondent Deutsche Bank National
Trust Company, as Trustee for Holders of the BCAP LLC Trust 2007-AA3's
("Deutsche Bank") failed to timely complete a foreclosure proceeding to enforce its
lien on a real property owned by the Petitioner within a 12-month period as
specifically required by the Petitioner's confirmed Chapter 11 Plan, pursuant to a
September 21, 2015 Bankruptcy Court Confirmation Order (the "Confirmation
Order"). The Confirmation Order has not been appealed, was not revoked, and has
not been voided nor vacated. As a result, the Petitioner timely filed an adversary
proceeding to extinguish Deutsche Bank's lien. On May 22, 2017, the Bankruptcy
Court not only declined to extinguish such lien as requested by the Petitioner but
4

rather, it, contemporaneously, granted summary judgment to the non-movant
Deutsche Bank, and also dismissed the Petitioner's adversary proceeding with
prejudice.

Less than two weeks later, the Bankruptcy Court also denied the

Petitioner's emergency motion for reconsideration of such rulings.
As outlined above, the Petitioner timely appealed all such Bankruptcy Court
orders to the District Court. The District Court subsequently affirmed the appealed
Bankruptcy Court orders. The Petitioner then timely appealed to the Eleventh
Circuit, resulting in the Eleventh Circuit's September 23, 2019 one page, per curiam
decision affirming the District Court decision. On December 16, 2019, the Eleventh
Circuit also denied the Petitioner's Motion for Rehearing En Banc. The Petitioner's
motion for a stay of the mandate was also subsequently denied by the Eleventh
Circuit.
Then, on March 19, 2020, pursuant to Petitioner's March 13, 2019 Application
for an Extension of time Within which to file a Petition for a Writ of Certiorari, this
Court granted a 30-day extension through April 14, 2020; and, then a further 30-day
extension as a result of the Court's March 19, 2020 COVID-19 pandemic-related
administrative order providing all petitioner's a 60-day extension to file their
respective petitions.
II.

Federal Jurisdiction in The Lower Courts
Pursuant to the Petitioner's appeal to the Eleventh Circuit, that court has

jurisdiction over appeals of all final decisions of the district court, including final
judgments in bankruptcy appeals. 28 U.S.C. Section 1291 and 28 U.S.C. Section
5

158(d), respectively. Thus, in the context of a bankruptcy case appeal, as in this case,
the circuit court of appeals sits as a second court of review and reviews the
bankruptcy court's decisions.
The District Court's jurisdiction to hear the Petitioner's initial appeal to the
District Court is pursuant to 28 U.S.C. Section 158(a)(1).
On December 1, 2014, the Petitioner filed a voluntary petition under Chapter
11, of Title 11, of the United States Code. The Petitioner remained as a "Debtor-inPossession" pursuant to the provisions of 11 U.S.C. Section 1107 until the Chapter
11 was confirmed by the Bankruptcy Court on September 21, 2015, and pursuant to
which the Bankruptcy Court retained jurisdiction over the subject-matter of the
proceedings in that court.

The Bankruptcy Court proceeding is a core matter

pursuant to 28 U.S.C. Section 157(b)(2)(A), (K), and (O).
The Bankruptcy Court also exercised jurisdiction in this case pursuant to 28
U.S.C. Section 1334(a); 28 U.S.C. Section 157; and, 11 U.S.C. Section 506.

An

adversary proceeding in bankruptcy is governed by Federal Rule of Bankruptcy
Procedure 7001.
III.

Factual Background

The facts in this case are not in dispute. The Petitioner filed her voluntary
Chapter 11 petition on December 1, 2014. Deutsche Bank did not file a claim in the
Petitioner's bankruptcy proceedings.

6

The Petitioner subsequently duly and timely noticed and served a Chapter 11
plan (Petitioner's "Plan") to all creditors and parties, including Deutsche Bank.
Although Deutsche Bank orally objected to the confirmation of the Petitioner's Plan
at the confirmation hearing, Deutsche Bank did not ever submit a written objection
to the Petitioner's Plan.
The Bankruptcy Court found the Petitioner's Plan fair and equitable, and,
resultingly, confirmed the Petitioner's plan in its September 21, 2015 Confirmation
Order. The Confirmation Order was not appealed by any party including Deutsche
Bank; and, the Confirmation Order also was not voided, vacated, nor modified.
Under the Petitioner's confirmed Chapter 11 Plan (the "Confirmed Plan"), the
Petitioner became the owner, in fee simple, of the subject real property in this case;
which is located at 445 Grand Bay Drive, Unit 1209, Key Biscayne, Florida 33149
(the "Real Property"). The Petitioner and her non-debtor spouse resided in and owned
the Real Property as of her bankruptcy petition date; her interest in the Real Property
was included in the property of the bankruptcy estate. The Real Property, an
approximately $3.8 million condominium unit, was encumbered by a first mortgage
in favor of Deutsche Bank.
Also, pursuant to her Confirmed Plan, the Petitioner assumed all the property
of her bankruptcy estate. All real properties owned by the Petitioner and her non­
debtor spouse immediately and irrevocably vested to the Petitioner, free and clear of
any interests of her spouse, and subject only to the liens and encumbrances as
provided in the Confirmed Plan.
7

Deutsche Bank's lien in relation to its mortgage [or Deutsche Bank's "claim"]
was clearly dealt with by Benkovitch's Confirmed Plan, incorporated into the
Confirmation Order. Pursuant to the Petitioner's Confirmed Plan and the
Confirmation Order, still in effect, Deutsche Bank's claim shall be deemed satisfied
and its liens shall be extinguished and satisfied of record by the Bankruptcy Court if
Deutsche Bank did not complete foreclosure proceedings against the Real Property
by November 19, 2016 [or 12 months from the "Effective Date" under the Confirmed
Plan]; or, in the alternative, by Deutsche Bank seeking an extension of such 12-month
time limit. Simply put, Deutsche Bank did not timely [start or] complete its
foreclosure proceeding of the Real Property nor seek any extension to its 12-month
time limit prior to November 20, 2016 - which is the first day after the its 12-month
time limit from the Effective Date in the Confirmed Plan. As the record in the
proceedings below evidences, there were at least two instances where Deutsche Bank
acknowledged its looming deadline under the Confirmed Plan but did not take any
timely required actions as it was supposed to.
Then, on May 16, 2016, after the Petitioner had commenced making payments
under the Confirmed Plan to creditors other than Deutsche Bank, the Bankruptcy
Court entered an order granting the Petitioner's motion to convert her Chapter 11
proceeding to a Chapter 7. The Confirmed Plan and the related Confirmation Order
do not contain any provisions cancelling Deutsche Bank's obligations under the
Confirmed Plan in the event of a conversion to a Chapter 7. Deutsche Bank also did
not oppose the conversion motion. Deutsche Bank was not entitled to receive any
8

payments under the Confirmed Plan, and Deutsche Bank received all that it was
entitled to under the Confirmed Plan.
The Petitioner remained as a debtor-in-possession through the confirmation
date - the date on which the Bankruptcy Court entered its Confirmation Order. On
June 15, 2016, the appointed bankruptcy trustee in her subsequent Chapter 7
abandoned all assets including the Real Property to the Petitioner.
As a result of the above, on March 14, 2017, the Petitioner filed an adversary
proceeding (the "Adversary Proceeding") in the Bankruptcy Court to extinguish
Deutsche Bank's lien because of Deutsche Bank's failure to complete its foreclosure
proceeding. Even, as of that later date of the Adversary Proceeding, Deutsche Bank
had still not completed a foreclosure proceeding against the Real Property as required
by the Confirmed Plan and Confirmation Order.
On March 23, 2017, the Petitioner also served and filed a motion for summary
judgment with respect to her complaint to extinguish Deutsche Bank's lien on the
Real Property.
However, as already cited, on May 22, 2017, after oral arguments were held,
the Bankruptcy Court entered two (2) contemporaneous but separate orders: (i)
granting Deutsche Bank its motion to dismiss Petitioner's adversary proceeding with
prejudice; and, (ii) granting summary judgment to non-movant Deutsche Bank. Then,
on June 1, 2017, the Bankruptcy Court also denied the Petitioner's emergency motion

9

for reconsideration of its two described orders, or in the alternative, for a stay pending
appeal.
REASONS FOR GRANTING THE PETITION
I.

The Eleventh Circuit’s Decision Contravenes The Bankruptcy
Code and Controlling Precedents
A. Statutory and Legal Framework
Where real property vested in the Debtor immediately upon confirmation of

her Chapter 11 Plan, and where such Confirmed Plan required a secured creditor to
take timely actions to preserve its lien, and where said creditor did not appeal the
Bankruptcy Court's confirmation order and did not take the required timely actions
to preserve its lien, and where the Bankruptcy Court then refused to enforce its own
confirmation order after finding the Confirmed Plan fair and equitable; and, where
the District Court [sitting as an intermediate appellate court] affirmed the
Bankruptcy Court's described rulings by also failing to enforce the clear and
unambiguous terms of a final, non-appealed order confirming a plan under Chapter
11 of Title 11 of the United States Code, the Eleventh Circuit failed to follow the
controlling precedents of this Court, and its own binding precedents.
In this case, there is a confirmed plan. First, "the provisions of a confirmed
plan bind the debtor...any creditor...whether or not the claim...of such creditor...is
impaired under the plan and whether or not such creditor...has accepted the plan."
11 U.S.C. Section 1141(a) ("Section 1141(a)"). The Bankruptcy Court's September 21,
2015 Confirmation Order is a final judgment. United Student Aid Funds, Inc. v.
Espinosa, 559 U.S. 260, 269, 130 S. Ct. 1367, 176 L. Ed. 2d 158 (2010) (citing Finova
10

Capital Corp. v. Larson Pharmacy Inc. (In re Optical Techs., Inc.), 425 F.3d 1294,
1300 (11th Cir. 2005)).
Plan confirmation as a final judgment is a fundamental tenet of bankruptcy
law. "When the bankruptcy court confirms a plan, its terms become binding on debtor
and creditor alike. Confirmation has preclusive effect, foreclosing relitigation of any
issue actually litigated by the parties and any issue necessarily determined by the
confirmation order." Bullard v. Blue Hills Bank, 135 S. Ct. 1686, 1692, 191 L. Ed. 2d
621 (2015) (internal quotations marks omitted) (citations omitted).
The policy favoring finality of confirmation orders is so strong that in Espinosa,
this Court declined to grant relief from an order confirming a chapter 13 plan that
contained a discharge provision flagrantly at odds with the proscriptions of the
Bankruptcy Code and the Federal Rules of Bankruptcy Procedure. Despite finding
that confirmation of the plan was legal error, this Court held that a confirmation
order remains enforceable and binding on the creditor because the creditor had notice
of the error and failed to object or timely appeal. Espinosa at 275.
The confirmed plan was not appealed by Deutsche Bank nor any other party.
In Travelers Indemnity Co. v. Bailey, 557 U.S. 137, 152, 129 S. Ct. 2195, 174 L. Ed.
2d 99 (2009), this Court also recognized the finality of bankruptcy court orders and
their res judicata effect, holding that they cannot be collaterally attacked. A
bankruptcy court's order that is final and no longer subject to appeal becomes "res
judicata to the parties and those in privity with them." Id.

11

Nor, was there, in this case, a motion to revoke the Bankruptcy Court's
Confirmation Order, pursuant to 11 U.S.C. Section 1144 ("Section 1144"), by any
party including Deutsche Bank. Pursuant to the pertinent part of Section 1144, "[o]n
request of a party in interest at any time before 180 days after the entry of the order
of confirmation, and after notice and a hearing, the court make revoke such order if
and only if such order was procured by fraud." Id.
There was also no motion for relief by Deutsche Bank or any other interested
party from the Bankruptcy Court's Confirmation Order pursuant to Federal Rule of
Civil Procedure 60(b) ("Rule 60(b)"), titled "Relief from a Judgment or Order," and
made applicable to bankruptcy cases by Federal Rule of Bankruptcy 9024 [titled the
same]. Rule 60(b) provides and "exception to finality" that "allows a party to seek
relief from a final judgment." Gonzalez v. Crosby, 545 U.S. 524, 528-29, 125 S. Ct.
2641, 162 L. Ed. 2d 480 (2005).
Notions of equity and fairness also do not override the binding effect of a
bankruptcy court confirmation order. As this Court said in Law u. Siegel, 571 U.S.
415, 421, 134 S. Ct. 1188, 188 L. Ed. 2d 146 (2014), the Supreme Court has...."long
held that 'whatever equitable powers remain in the bankruptcy courts must and can
only be exercised with the confines of the Bankruptcy Code.' " (Citing Norwest Bank
Worthington v. Ahlers, 485 U.S. 197, 206, 108 S. Ct. 963, 99 L. Ed. 2d 169 (1988)). 11
U.S.C. Section 105(a) ("Section 105(a)") "does not allow a bankruptcy court to override
explicit mandates of other sections of the Bankruptcy Code." Id.

12

Finally, pursuant to 11 U.S.C. Section 348 ("Section 348"), titled "Effect of
Conversion," the final and binding effect of a bankruptcy court's confirmation order
remains in place even upon conversion to a chapter 7 proceeding. That is, conversion
of a chapter 11 case to a chapter 7 does not vacate the order confirming the plan. See
Section 348 [at App.] which omits any reference to respectively, Section 1141 [titled,
"Effect of Confirmation"] and 11 U.S.C. Section 1129 ("Section 1129") [titled,
"Confirmation of a Plan"]. This Court's holding in Harris v. Viegelahn, 135 S. Ct.
1829, 191 L. Ed. 2d 783 (2015) that a confirmed plan in a chapter 13 — which was
subsequently converted to a chapter 7 — has not been applied in a chapter 11 setting
by this Court. However, the Eleventh Circuit's September 23, 2019 decision affirming
the District Court's March 30, 2018 order conflicts with numerous other circuit courts
which have held that a chapter 11 confirmed plan is binding even upon conversion to
a chapter 7.
B. The Bankruptcy Court’s Final Confirmation Order is Binding and
Must be Enforced
Pursuant to the statutory and legal framework cited and described above [and
further detailed below], a confirmed Chapter 11 Plan of reorganization, such as the
Petitioner's Confirmed Plan [as incorporated into the Bankruptcy Court's
Confirmation Order] is binding and must be enforced. Neither the Eleventh Circuit
nor the courts below have applied and effectuated the finality and enforceability of
the Bankruptcy Court's September 21, 2015 Confirmation Order, which was not
appealed, and not vacated nor voided.

This is contrary to controlling law and

precedents.
13

Again, the effect of confirmation under the plain language of Section 1141 of
the Bankruptcy Code [titled "Effect of Confirmation"] is to bind all parties to the
terms of a confirmed plan, including creditors and debtors alike. This Court has also
specifically stated that "[wjhen the bankruptcy court confirms a plan, its terms
become binding on debtor and creditor alike. Confirmation has preclusive effect,
foreclosing...any issue necessarily determined by the confirmation order." Bullard v.
Blue Hills Bank, 135 S. Ct. 1686, 1692, 191 L. Ed. 2d 621 (2015).
Further, even if a Chapter 11 plan contains provisions contrary to the
requirements of the Bankruptcy Code, the provisions of a confirmed plan are binding
and enforceable, provided all parties in interest had sufficient notice and an
opportunity to object; and, the order confirming the plan is a final order not stayed or
pending appeal. See this Court's ruling in United Student Aid Funds, Inc. v. Espinosa,
559 U.S. 260, 275 130 S. Ct. 1367, 176 L. Ed. 2d 158 (2010) ("the Bankruptcy Court's
failure to find undue hardship before confirming [debtor's] plan was a legal error...But
the order remains enforceable and binding on [creditor] because [creditor] had notice
of the error and failed to object or timely appeal.").
In this case, Deutsche Bank received actual and adequate notice of the
Petitioner's Plan and its confirmation; however, it did not formally object and did not
move to appeal nor vacate the Confirmation Order. A party that makes "a considered
choice not to appeal...cannot be relieved of such a choice because hindsight seems to
indicate to him that his decision not to appeal was probably wrong." Ackermann v.
United States, 340 U.S. 193, 198, 71 S. Ct. 209, 95 L. 2d. 207 (1950). Deutsche Bank
14

is, resultingly, bound by the terms of the Petitioner's Confirmed Plan. Subsequently
though, Deutsche Bank did not pursue its "in rem" rights that it had under the 12month time limit, nor did it seek any type of extension within such period.
Additionally, after confirmation of a chapter 11 plan - as in the case here - a
creditor's lien rights are only those granted in the confirmed plan, and there is
nothing in Section 1141 which suggests that the Petitioner's failure to achieve
promises made in her Confirmed Plan reinstates Deutsche Bank's pre-confirmation
lien rights.
C. Notions of Equity and Fairness Do Not Override the Provisions of

The Bankruptcy Code
The Eleventh Circuit did not elaborate on its September 23, 2019 decision
giving rise to this Petition. However, by affirming the three appealed Bankruptcy
Court orders and the District Court's order affirming those three Bankruptcy Court
orders [in the Petitioner's initial appeal to the District Court], the Eleventh Circuit
effectively agreed with the Bankruptcy Court's stated equitable considerations. Any
such basis for the Eleventh Circuit's decision is contrary to both bankruptcy law and
controlling precedent in this Court.
With respect to bankruptcy law, this Court held in Law v. Siegel, 571 U.S. 415,
421, 134 S. Ct. 1188, 188 L. Ed. 2d 146 (2014) that the bankruptcy court's general
statutory authority under 11 U.S.C. Section 105(a) ("Section 105(a)") "does not allow
a bankruptcy court to override explicit mandates of other section of the Bankruptcy
Code." Id. at 421. The Court also stated that "Section 105(a) confers authority to carry

15

out the provisions of the code, but it is quite impossible to do that by taking action
that the code prohibits. That is simply an application of the axiom that a statute's
general permission to take actions of a certain type must yield to a specific prohibition
elsewhere." Id. at 421 (internal quotations, and citations omitted).
In this case, the Eleventh Circuit's decision has essentially permitted the
Bankruptcy Court [and subsequently, the District Court] to override Section 1141(a)
and Section 348, respectively. However, as outlined in Law v. Siegel, supra, this
Court clarified that bankruptcy courts could use neither statutory nor inherent
sources of broad, general authority to "contravene specific statutory provisions." Any
"equitable powers [that] remain in the bankruptcy courts must and can only be
exercised within the confines of the Bankruptcy Code." Law v. Siegel at 421
(quotation omitted). What the Bankruptcy Code provides, a judge cannot override by
declaring that enforcement would be "inequitable." See Toibb u. Radloff, 501 U.S.
157, 162, 111 S. Ct. 2197, 115 L. Ed. 2d 145 (1991).
It is clear from its orders [that were appealed by the Petitioner] that the
Bankruptcy Court deviated from the Bankruptcy Code in rendering those orders as
that court believed that it was unfair that the creditor, Deutsche Bank, would lose its
lien on the Real Property; and, that the Petitioner [as the Debtor] would gain as a
result of Deutsche Bank's failure to comply with the terms of the non-appealed and
final Confirmation Order, and resulting Confirmed Plan. However, as this Court also
explained in Norwest Bank Worthington v. Ahlers, 485 U.S. 197, 207 108 S. Ct. 963,

16

99 L. Ed. 2d 169 (1988), courts cannot deviate from the procedures "specified by the
Code," even when they sincerely "believ[e] that...creditors would be better off."
Additionally, "[a] judgment is not void, for example, simply because it is or may
have been erroneous." United Student Aid Funds, Inc. v. Espinosa, 559 U.S. 260, 270,
130 S. Ct. 1367, 176 L. ed. 2d 158 (2010) (quotation marks omitted). In this case, the
Eleventh Circuit's decision [and the lower courts' orders before it] effectively voided
the Bankruptcy Court's final Confirmation Order in contravention of controlling
precedents.
D. The Res Judicata Effect of a Final Confirmation Order
All the elements for res judicata are met by the Bankruptcy Court's
Confirmation Order. It was not appealed, and not voided, nor revoked. "The
preclusive effect of a federal court judgment is determined by federal common law."
Taylor v. Sturgell, 553 U.S. 880, 891, 128 S. Ct. 2161, 2171, 171 L. Ed. 2d 155 (2008).
Under federal issue-preclusion principles, "once an issue is actually and necessarily
determined by a court of competent jurisdiction, that determination is conclusive in
subsequent suits based on a different cause of action involving a party to that prior
litigation." Montana v. United States, 440 U.S. 147, 153, 99 S. Ct. 970, 59 L. Ed. 2d
210 (1979).
That standard for issue preclusion is met in this case because of the
Bankruptcy Court's final Confirmation Order. In Bullard v. Blue Hills Bank, 135 S.
Ct. 1686, 1692, 191 L. Ed. 2d 621 (2015), this Court stated that "[w]hen the
bankruptcy court confirms a plan, its terms become binding on debtor and creditor
17

alike. Confirmation has preclusive effect, foreclosing relitigation of any issue actually
litigated by the parties and any issue necessarily determined by the confirmation
order." Id.
Moreover, in Travelers Indemnity Co. v. Bailey, 557 U.S. 137, 152, 129 St. Ct.
2195, 174 L. Ed. 2d 99 (2009), this Court recognized the finality of a bankruptcy court
orders and their res judicata effect, holding that they cannot be collaterally attacked.
Because the confirmation order in said controlling case "became final on direct
review," [as in this case] this Court held it was "res judicata to the parties and those
in privity with them, not only as to every matter which was offered and received to
sustain or defeat the claim or demand, but as to any other admissible matter which
might have been offered for that purpose." Id. at 152 (internal quotation marks
omitted). Also see Federated Dep’t Stores, Inc. v. Moitie, 452 U.S. 394, 398, 101 S. Ct.
2424, 69 L. Ed. 2d 103 (1981) (a final order "precludes the parties or their privies from
relitigating" issues elsewhere.).
Thus, likewise, the Bankruptcy Court's Confirmation Order in this case is res
judicata, and Deutsche Bank is bound by the terms of the Petitioner's Confirmed Plan
which is incorporated into the Confirmation Order. Those terms state that Deutsche
Bank's claim shall be deemed satisfied and its liens shall be extinguished and
satisfied of record, by the Bankruptcy Court, if Deutsche Bank did not complete its
foreclosure proceedings against the Petitioner's Real Property by November 19, 2016;
or, by Deutsche Bank seeking an extension of such 12-month time limit. Deutsche
Bank failed to do either within such required 12-month time limit in accordance with
18

the terms of the Confirmed Plan and the provisions of the Confirmation Order
affecting Deutsche Bank's lien. Deutsche Bank received adequate due process notice
of the Confirmed Plan, participated in the confirmation hearing, and did not move to
seek any relief, including appeal, from the Confirmation Order whatsoever.
"The normal rules of res judicata and collateral estoppel apply to the decisions
of bankruptcy courts." Katchen v. Landry, 382 U.S. 323, 334, 86 S. Ct. 467, 151 L. Ed.
2d 391 (1966).
The Eleventh Circuit's September 23, 2019 decision represents a willingness
of the Eleventh Circuit to entertain, and, in fact, permit a collateral attack on the
Bankruptcy Court's Confirmation Order and resulting Confirmed Plan. This cannot
be squared with the doctrine of res judicata and the practical necessity served by that
rule as clearly established by this Court. "It is just as important that there should be
a place to end as that there should be a place to begin litigation," Stoll u. Gottlieb, 305
U.S. 165, 172, 59 S. Ct. 134, 83 L. Ed. 104 (1938).
II.

As a Result of The Eleventh Circuit’s Decision, The Circuits Are
Now Even Further Split With Respect To The Continuing Binding
Effect of a Final Chapter 11 Confirmation Order After
Conversion To Chapter 7
The Eleventh Circuit's September 23, 2019 decision affirmed the District

Court's March 30, 2018 order which, in turn, had affirmed the three Bankruptcy
Court orders appealed to that District Court. As clearly set out in the District Court
order, that court relied on the conversion of the Petitioner's bankruptcy proceeding
to a Chapter 7 to support its findings. The Eleventh Circuit did not provide any

19

reasoning nor opinion(s) for its decision affirming the District Court's order, but by
affirming the District Court's ruling, the Eleventh Circuit has effectively agreed with
the District Court's findings and conclusions.
However, the result of the Eleventh Circuit's decision is that it conflicts with
other circuits' decisions in relation to the binding effect of a confirmed chapter 11 plan
upon conversion to chapter 7, as in the case here.
First, other circuits have found that pursuant to Section 348 [again, titled
"Effect of Conversion"], the final and binding effect of the Bankruptcy Court's
Confirmation Order in a chapter 11 remains in place even upon conversion of such
bankruptcy proceeding to a chapter 7. As cited below, the Fifth Circuit Court of
Appeals (the "Fifth Circuit") and also the Tenth Circuit courts of appeals (the "Tenth
Circuit"), both of which have squarely confronted the described issue, have
respectively held that a later conversion to a chapter 7 proceeding after a chapter 11
plan has already been confirmed does not vitiate the binding nature of a confirmed
chapter 11 plan:
(i)

In Bank of LA. v. Pavlovich (Matter of Pavlovich), 952 F.2d 114 (5th Cir.
1992), the Fifth Circuit relied on the Bankruptcy Code to consider the
"interplay" between a chapter 11 confirmation and subsequent conversion
to chapter 7. In its detailed and reasoned decision, the Fifth Circuit held
that the creditor (a bank) was bound by the confirmed chapter 11 plan even
upon conversion to chapter 7. Id. at 117-118.

20

(ii)

In Laing v. A.G. Johnson (In re Laing), 31 F.3d 1050 (10th Cir. 1994), the
Tenth Circuit also held that a confirmed plan functions as a judgment with
regard to the parties bound by that plan even though the chapter 11
bankruptcy was later converted to chapter 7. Id at 1051 (quotations and
citations omitted).
Secondly, the Ninth Circuit Court of Appeals (the "Ninth Circuit") has held

that Section 1144 [again, titled "Revocation of an order of confirmation"] is the only
avenue for revoking a confirmed plan of reorganization, and, thus, overriding the
implications of a conversion to a chapter 7 on a confirmed chapter 11 plan: In re
Orange Tree Assocs., Ltd., 961 F.2d 1445, 1447 n.6 (9th Cir. 1992) ("Section 1144 is
the only avenue for revoking confirmation of a plan of reorganization"), (quoting In re
Longardner & Assocs., Inc., 855 F.2d 455, 460 (7th Cir. 1988) (citing In re Newport
Harbor Assocs., 589 F.2d 20, 22 (1st Cir. 1978)). It is noteworthy that the Ninth
Circuit's binding decision was supported by relevant decisions of, respectively, the
Seventh Circuit Court of Appeals (the "Seventh Circuit") and the First Circuit Court
of Appeals (the "First Circuit").
Pursuant to the foregoing, and based on the Eleventh Circuit's unsupported
decision in this case, there is not only an increasing conflict between the circuits on
whether a confirmed chapter 11 plan remains binding after a conversion to a chapter
7, but also a lack of controlling case law from this Court with respect to this important
bankruptcy law issue.

21

Moreover, this Court's holding in Harris v. Viegelahn, 135 S. Ct. 1829, 191 L.
Ed. 2d 783 (2015) (that in a chapter 13 proceeding which had a confirmed plan and
later converted to a chapter 7, the Chapter 13 confirmed plan was no longer binding)
has not been applied in a chapter 11 setting; i.e. the binding effect of a confirmed plan
in a chapter 11 proceeding that was later converted to a chapter 7, as in in the case
here.

This may be because, among other relevant considerations cited in the

conflicting cases above [and further discussed in the next section of this Petition],
Section 348 of the Bankruptcy Code omits any reference to Sections 1129 and 1141,
respectively; and, as Section 1144 is the only avenue for revoking confirmation of a
chapter 11 plan of reorganization, a chapter 11 plan's binding effect survives
conversion to chapter 7.
The Eleventh Circuit's September 23, 2019 judgment did not include any
reasoning nor citations for its decision, but that appellate court may have also
misapplied this Court's holding in Harris v. Viegelahn in rendering its decision. In
any event, this Court's intervention is also warranted because as highlighted above,
the Eleventh Circuit decision in this case conflicts with the published and controlling
holdings of the Fifth, Ninth and Tenth Circuits; and, perhaps those of the First and
Seventh Circuits also.
III.

This Case Presents

an

Ideal Vehicle

as it

Impacts Unresolved

Areas of Bankruptcy Law
As discussed in the "Reasons For Granting The Petition," section above,
although the Eleventh Circuit did not provide any reasoning or support for its
September 23, 2019 judgment affirming the Petitioner' appeal to that court, its
22

decision not only contravenes the Bankruptcy Code but also does not adhere to
controlling law and precedent established by this Court. Additionally, as highlighted
in the last section of this Petition, the Eleventh Circuit has also not abided by its own
precedents in rendering its September 23, 2019 order, including after scheduling and
holding oral argument in this case.
Also important for this Court is that this case does touch numerous bankruptcy
law issues - one of which is unsettled between the circuits and has not yet been
addressed by this Court. Moreover, the circuits themselves are also split as to their
reasoning for their holdings. This case is on point as to the binding effect of a
confirmed chapter 11 plan, subsequently converted to a chapter 7. As highlighted
above, in this case, the District Court affirmed the three appealed Bankruptcy Court's
orders based on the conversion of the Petitioner's chapter 11 case to a chapter 7; and,
resultingly, disregarded the binding effect of Deutsche Bank's obligations under the
Confirmed Plan. The Eleventh Circuit, in turn, affirmed the District Court's order.
Although the Eleventh Circuit did not provide any bases nor support for its decision,
by affirming the District Court's order, the Eleventh Circuit effectively agreed with
the District Court’s reasoning.
Subsequently, based on the Eleventh Circuit's decision in this case and as a
number of circuits have not squarely confronted this issue before, there is a circuit
split as to whether a confirmed chapter 11 plan remains binding after conversion to
a chapter 7. In fact, as highlighted in the section above, there is a further split
between the circuits as to why a confirmed chapter 11 plan remains binding after
23

conversion to a chapter 7. The Fifth Circuit, for example, in Bank of LA. u. Pavlovich
(Matter of Pavlovich), 952 F.2d 114 (5th Cir. 1992), analyzed the different components
of the Bankruptcy Code including Sections 1141, 1144 and 348, respectively, to hold
that the provisions of a confirmed chapter 11 plan remain binding after conversion to
a chapter 7. Id. at 117-118. In contrast, the Ninth Circuit, in In re Orange Tree
Assocs., Ltd., 961 F.2d 1445 (9th Cir. 1992) stated that Section 1144, which permits
the revocation of a confirmed Chapter 11 plan, is the only avenue to override the
binding effect of a confirmed chapter 11 plan even upon conversion to a chapter 7. Id.
at 1147, n.6.
Also, pertinently, in In re State Airlines, 873 F.2d 264 (11th Cir. 1989), the
Eleventh Circuit itself touched on the effect of Section 348 in a conversion to chapter
7, stating that Section 348(a) "does not effect a change in the date of the filing of the
petition, the commencement of the case, or the order for relief." Id. at 268. As
discussed later below [in the last section of this Petition], pursuant to such finding by
the Eleventh Circuit in the cited case, an argument can additionally be made that the
Eleventh Circuit has now also disregarded its own precedent finding with respect to
the continuing binding effect of a confirmed chapter 11 plan upon conversion to a
chapter 7. For instance, it can be argued that in In re State Airlines, the Eleventh
Circuit has held that Section 348 (i.e. a conversion to chapter 7) does not change the
"order for relief," i.e. the confirmation order.
As a result of these noted and important circuit conflicts and due to the varying
interpretation of the Bankruptcy Code by the circuit courts in relation to the same
24

issue, this case makes an excellent vehicle for this Court to address the materially
significant question as to whether a confirmed chapter 11 plan remains binding after
conversion to a chapter 7.
This is especially true considering this Court's decision in a chapter 13
conversion to a chapter 7 in Harris v. Viegelahn, 135 S. Ct. 1829, 191 L. Ed. 2d 783
(2015). However, because there other differences and also pursuant to Sections 348
and 1144, respectively, this case makes an excellent vehicle for this Court to analyze
the "binding effect" differences between a confirmed chapter 13 conversion to a
chapter 7 and a conversion after a chapter 11 has been confirmed.
In Viegelahn, this Court cited 11 U.S.C. Section 103(i), and held "that when a
debtor exercises his statutory right to convert, the case is placed under chapter 7's
governance, and no chapter 13 provision holds sway." Id. at 1838. Thus, an argument
can be made for applying Viegelahn's logic in the context of a case converted from
chapter 11 to chapter 7 because, pursuant to Section 1141(a)'s provision that a
confirmed chapter 11 plan "binds" falls within Section 103(g)'s scope, it can be
advanced that Section 1141(a) would no longer apply after conversion to a chapter 7;
and, if Section 1141(a) no longer applies, then, resultingly, confirmed chapter 11
plans can no longer bind the parties after conversion from chapter 11 to a chapter 7.
However, there are pertinent differences between the applicable provisions of
the Bankruptcy Code that show that a conversion in a chapter 13 case cannot be
applied with the same effect in a conversion of a chapter 11 case; and, hence, why this
case is ideal for this Court to weigh in on.
25

First, while both chapter 13 and chapter 11 of the Bankruptcy Code contain a
provision allowing a court to vacate a confirmation order procured by fraud, those
respective provisions are markedly different. Section 1144 in a chapter 11 case
provides that "on request of a party in interest at any time before 180 days after the
date of the entry of the order of confirmation, and after notice and a hearing, the court
may revoke such order if and only if such order was procured by fraud." Id. This
contrasts with the language in the equivalent statute in a chapter 13 case. 11 U.S.C.
1330 ("Section 1330") on revocation of a confirmed chapter 13 plan states that: "On
request of a party in interest at any time within 180 days after the entry of an order
of confirmation under Section 1325 of this title, and after notice and a hearing, the
court may revoke such order if such order was procured by fraud. Id., Section 1330(a).
Thus, Section 1330 in a chapter 13 case allows revocation if plan confirmation
was procured by fraud, but does not exclude other bases for reversing the binding
effect of the confirmation order after conversion; i.e. Sections 103(i) and 348(e)
respectively, which are thereby applicable. In contrast, Section 1144's specific use of
the phrase "if and only if' restricts the basis for revocation of a chapter 11
confirmation order to the procuring of such order by fraud; and, this restriction
thereby excludes other bases for revocation after conversion; e.g. Sections 103(g) and
348(a), respectively.
Secondly, unwinding the effect of a confirmed chapter 13 plan is more
straightforward than unwinding the effect of a confirmed chapter 11 plan. After
conversion from chapter 13, unwinding the effects of a confirmed but failed chapter
26

13 plan ordinarily is as simple as requiring the chapter 13 trustee to refund
undistributed plan payments. See Viegelahn, supra, at 1837-40. Unlike chapter 13
plans however, chapter 11 plans are largely implemented by complex and numerous
transactions that would be difficult, if not impossible, to disentangle after
confirmation. It is perhaps for this reason that Congress enacted Section 1144 with
its specific language to allow a chapter 11 confirmation order to be revoked under so
very narrow circumstances.
These discussed Bankruptcy Code differences and related issues, and the
circuit courts' varying interpretation of the applicable statutes of the Bankruptcy
Code - all of which are material issues in this case - further highlight why this case
is ideal for this Court's review and determination.
IV.

The Eleventh Circuit’s Decision is Wrong and Inconsistent With
Its Own Precedents
A. Relevant Considerations in This Case That Show Why
Eleventh’s Circuit’s Decision Was Wrong

the

As already discussed above, what makes the Bankruptcy Court's final
Confirmation Order different from any other final and binding order (entered after
meticulous attention to due process and proper notice); especially [as already cited
above], pursuant to the Bankruptcy Code, confirmation of a reorganization plan is
equivalent to final judgment in a civil action that extinguishes an existing claim and
substitutes for a judgment, and defines the new obligations of the parties: in essence,
a new contract between the Petitioner and her creditors is created.

27

Pursuant to such Confirmation Order, and as a result of Deutsche Bank's
failure to comply with the terms of the Petitioner's Plan [incorporated into the
Confirmation Order], Deutsche Bank's lien should have been extinguished by the
Bankruptcy Court - and, it erred by failing to do so. As also highlighted above, the
District Court's order affirming the appealed Bankruptcy Court orders is also
erroneous because a conversion to a chapter 7 does not vitiate the binding terms of
the Petitioner's Confirmed Plan on a creditor like Deutsche Bank, whose
lien/mortgage was dealt with in the Confirmed Plan.
Although it held oral argument, the Eleventh Circuit did not provide any
reasoning in affirming the above-cited District Court order, including with respect to
that oral argument. However, the following considerations are relevant in further
highlighting that the Eleventh Circuit's decision is wrong with respect to the
Petitioner's appeal to that court:
1. Although Deutsche Bank's counsel orally objected to confirmation at the
Bankruptcy Court's confirmation hearing on the basis that Deutsche Bank
could not be forced to take the Real Property back, it never filed a written
objection to the confirmation of the Petitioner's Chapter 11 Plan and how that
Plan would address Deutsche Bank's lien.
2. Deutsche Bank's treatment in the Petitioner's Confirmed Plan was not
modified, by the Petitioner, as she is entitled to do, at any time after the
Bankruptcy Court entered its Confirmation Order; and, as provided for in 11

28

U.S.C. Section 1127(b) ("Section 1127(b)") [titled, "Modification of plan"] of the
Bankruptcy Code.
3. As reiterated numerous times above, there was also no appeal taken from the
Bankruptcy Court's order of confirmation by Deutsche Bank or any other party
in the bankruptcy proceedings. A motion to reconsider the Confirmation Order
under the applicable bankruptcy and/or local rules was also not made by
Deutsche Bank or any other’party:
4. As shown above, there was no motion to revoke the Bankruptcy Court's
Confirmation Order pursuant to Section 1144 submitted by any party,
including Deutsche Bank.
5. There was no motion for relief by Deutsche Bank or any other interested party
from the Bankruptcy Court's Confirmation Order pursuant to Rule 60(b), made
applicable to bankruptcy cases by Bankruptcy Rule 9024.
6. Deutsche Bank did not file any complaint nor objection to avoid any
dischargeability afforded to the Petitioner in the bankruptcy outcome, prior to
confirmation of the Petitioner's Chapter 11 Plan, or at any time thereafter.
7. Deutsche Bank's lien/mortgage in relation to the Real Property was fully dealt
with by the Petitioner's Confirmed Chapter 11 Plan. The plain language of the
Bankruptcy Code provides that the Real Property transferred to the Petitioner
as of the entry of the Confirmation Order. Pursuant to Section 1141(b), except
as provided in the plan, all property of the bankruptcy estate is vested in the

29

debtor upon confirmation. Even conversion to a Chapter 7 does not bring that
property back into the converted case.
8. The Petitioner's Confirmed Plan conditionally preserved Deutsche Bank's lien
[or claim], subject to Deutsche Bank exercising any "in rem" rights it had in
relation to its lien/mortgage on the Real Property within 12 months of the
Effective Date of the Confirmed Plan, or by seeking an extension of such 12month time limit for good cause prior to the expiration of such 12-month period.
Simply put, Deutsche Bank did neither. The consequences of Deutsche Bank's
failure to timely seek a foreclosure on the Real Property or seek an extension
are plainly stated in the Confirmed Plan:
"If [Deutsche Bank] does not complete its pending foreclosure
proceedings on or before the first day of the 12th month after the
Effective Date, its claims shall be deemed satisfied of record, by order of
the Bankruptcy Code in recordable form to be filed in the public records
of Miami-Dade County."
9. Neither any section of the Bankruptcy Code, nor any order subsequent to the
Bankruptcy Court's Confirmation Order changed the result of Deutsche Bank's
failure to either complete a foreclosure or seek an extension of time to do so, as
required by the Petitioner's Confirmed Plan. Consequently, Deutsche Bank's
rights are fully based on what treatment it was accorded in the Confirmed Plan
- nothing else.

30

10. Deutsche Bank admits in its pleadings [and the lower court record evidences]
that it was aware of the looming deadline but failed to comply with the
provisions of the Petitioner's Confirmed Plan because it did not have to. The
record and Deutsche Bank's pleadings also evidence that Deutsche Bank
received proper notice and service throughout the proceedings below.
11. Nowhere in the Petitioner's Confirmed Plan does it state that Deutsche Bank's
provided 12-month time limit to commence its foreclosure proceedings or
request an extension is voided, vacated or nullified by a conversion to a
Chapter 7, through default or otherwise.
12. The Petitioner's Confirmed Plan was substantially consummated as all the
property in the Plan [including the Real Property] was transferred to the
Petitioner; the Petitioner assumed and managed said property; and, there was
commencement of distribution under the Confirmed Plan to creditors.
B. The Eleventh Circuit Disregarded Its Own Precedents
In view of the relevant considerations highlighted just above and the law and
precedents already shown and described in this Petition, the Eleventh Circuit's
September 23, 2019 decision is contrary to all such cited controlling law and
precedent. Also important to this Petition and further warranting review by this
Court is that the Eleventh Circuit's judgment disregards the Eleventh Circuit's own
precedents.
The Petitioner attempted to also highlight such issues and precedents to the
Eleventh Circuit in a timely filed petition for rehearing en banc. However, said

31

petition was denied by the Eleventh Circuit on December 16, 2019, and, thereafter,
has also let to this instant Petition to this Court.
Also pertinent to this Petition is that, in addition to conflicting with the
decisions of other circuits and also this Court [as shown above], there are also a
number of prior Eleventh Circuit opinions that directly conflict with its decision in
this case. Moreover, a recent Eleventh Circuit opinion (which is not published but
reported as cited below), entered shortly after the Eleventh Circuit denied the
Petitioner's request for a rehearing en banc, further evidences the errors and conflicts
in this case by the appellate court.
1. The Eleventh Circuit's Judgment in This Case Conflicts With Its Prior
Decisions Regarding The Finality, And The Binding And Res Judicata
Effects Of A Bankruptcy Confirmation Order
In, In re Optical Technologies, Inc., 425 F.3d 1294, 1300 (11th Cir. 2005), the
Eleventh Circuit held that "[i]t is established that a confirmation order satisfies the
requirements of a judgment that be given [preclusive] effect.'" (Citing and quoting In
re Justice Oaks II, Ltd., 898 F.2d 1544, 1549 (11th Cir. 1990)).
In First Nat'l Bank of Oneida, N.A. v. Brandt, 887 F.3d 1255, 1260 (11th Cir.
2018), the Eleventh Circuit held that pursuant to Section 1141(a), once a chapter 11
plan is confirmed, it is binding on both the debtor and creditor. Pertinently, in the
cited case, the Eleventh Circuit cited Section 1144 and specifically stated that "[t]he
plan cannot be revoked unless, within 180 days after confirmation, it is shown that
the plan was procured by fraud." Id. at 1260. Such conflicting finding by the Eleventh
Circuit [when compared to its judgment in this case] and the discussions in the above
32

sections II and III, respectively, further support why this Petition should,
respectfully, be granted by this Court.
Also see the Eleventh Circuit's holding in Iberiabank v. Geisen (In re FFS Data,
Inc.), 776 F.3d 1299, 1306 (11th Cir. 2015), where that court recognized the finality
of a bankruptcy court's confirmation orders and their res judicata effect, holding that
such final orders cannot be collaterally attacked.
Additionally, in IRTPartners, L.P. v. Winn-Dixie Stores, Inc. (In re Winn-Dixie
Stores, Inc.), 639 F.3d 1053 (11th Cir. 2011), the Eleventh Circuit agreed with the
Seventh Circuit, and stated that the creditor's [Deutsche Bank's] rights are based on
whatever treatment is accorded to [the creditor] in the plan itself. Id. at 1056 (citation
and quotations omitted).
The above examples of the Eleventh Circuit's precedent findings further
highlight that court's erroneous judgment in this case with respect to the finality, and
binding and res judicata effect of the Bankruptcy Court's Confirmation Order.
Equally important is that approximately ten (10) days after entering its
December 16, 2019 order denying the Petitioner's noted petition for rehearing en
banc, the Eleventh Circuit rendered another [non-published] opinion which conflicts
with its decision in this case. In In re Westport Holdings Tampa, 789 Fed. Appx. 207
(11th Cir. 2019), the Eleventh Circuit stated that "[a] bankruptcy court's confirmation
order that is final and no longer subject to appeal [is] 'res judicata to the parties and
those in privity with them'....[o]nce a confirmation order is no longer appealable,

33

either because the appellants have exhausted their direct appeal or the deadline to
appeal has passed, it becomes a final, binding judgment....[a]nd once the confirmation
order is final, any alleged defects in it cannot be collaterally attacked." Id. at 208
(citing and quoting Travelers Indem. Co. v. Bailey, 557 U.S. 137, 152-153, 129 S. Ct.
2195, 2205-2206, 174 L. Ed. 2d 99 (2009) (internal quotations omitted). Clearly, such
more recent decision by the Eleventh Circuit conflicts with its decision in this case.
2. The Eleventh Circuit's Judgment in This Case Also Conflicts With Its
Precedents Regarding The Notions Of Equity and Fairness
In Welzel v. Advocate Realty Invs., LLC (In re Welzel), 275 F.3d 1308 (11th Cir.
2001), the Eleventh Circuit specifically held that "[t]the statutory language of the
Bankruptcy Code should not be trumped by generalized equitable pronouncements."
Id. at 1318.
Likewise, in Chemical Bank v. First Trust of New York (In re Southeast
Banking Corp.), 156 F.3d 1114, 1122 (11th Cir. 1998), the Eleventh Circuit asserted
that "whatever equitable powers remain in the bankruptcy courts must and can only
be exercised within the confines of the Bankruptcy Code." Id. at 1122 (quoting this
Court's findings in Norwest Bank Worthington v. Ahlers, 485 U.S. 197, 2016, 108 S.
Ct. 963, 969, 99 L. Ed. 2d 169 (1988).
3. The Eleventh Circuit's Judgment Additionally Disregards Its Prior
Finding in The Conversion of a Confirmed Chapter II Case to a
Chapter 7
As already described in a preceding section above, in In re State Airlines, 873
F.2d 264 (11th Cir. 1989), the Eleventh Circuit outlined that the effect of Section 348

34

in a chapter 11 conversion to a chapter 7 "does not effect a change in the date of the
filing of the petition, the commencement of the case, or the order for relief." Id. at 268.
It can be inferred that the "order for relief' is the confirmation of the chapter 11 case;
and, therefore, a Chapter 11 confirmation order remains in effect upon conversion to
a chapter 7.
As a result of its prior decisions, the Eleventh Circuit's order in this case also
cannot be squared with its own controlling precedents.
4. Additional Considerations With Respect The Eleventh Circuit's
Decision
Importantly, the Eleventh Circuit did not find this case moot in its decision.
Otherwise, it would have stated so. In addition, it scheduled and held oral argument,
further reinforcing that this case is not moot. Moreover, as this court has held, "[a]s
long as the parties have a concrete interest, however small, in the outcome of
litigation, the case is not moot." Knox v. Serv. Emps. Int'l Union, Local 1000, 567 298,
132 S. Ct. 2277, 2287 183 L. Ed. 2d 281 (2012) (internal quotation marks and
alteration omitted). Also see Campbell EwaldCo. v. Gomez, 136 S. Ct. 663, 669, 193
L. Ed. 2d 571 (2016), as revised, (Feb. 9, 2016).
In this entire proceeding [including the proceedings in the courts below], there
still exists a case and controversies for this Court to consider especially in view of the
conflicts associated with the Eleventh Circuit decision in this case, and the relevant
circuit conflicts identified earlier above. North Carolina v. Rice, 404 U.S. 244, 246, 92
S. Ct. 402, 404, 30 L. Ed. 2d 413 (1971). This Court can remand the case with

35

instructions to enter judgment in favor of the Petitioner which will void the mortgage
judgment ab initio, at which time any foreclosure of the Real Property would be void,
and the Petitioner would, resultingly be restored to title, less the mortgage of
Deutsche Bank. In the alternative, other appropriate relief can still be fashioned by
the Bankruptcy Court as it continues to have jurisdiction with respect to the Real
Property.
CONCLUSION
For the foregoing reasons, the Petitioner, appearing pro se, respectfully
requests that the Honorable Court grant her Petition for a Writ of Certiorari.
Respectfully Submitted,

YL-nM
VIKTORIA BENKOVTTCH
Petitioner, appearing Pro Se
44 Cotswold Crescent,
Toronto, Ontario
Canada M2P 1N2
Telephone: 786 223 3979

36

